     Department of Homeland Security
     2IÀFH RI ,QVSHFWRU *HQHUDO

 South Dakota’s Management of Homeland Security
      Grant Program Awards for Fiscal Years
                2010 Through 2012




OIG-14-89                                May 2014
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      MAY 2 2014

MEMORANDUM FOR:              Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     South Dakota’s Management of Homeland Security Grant
                             Program Awards for Fiscal Years 2010 Through 2012

Attached for your action is our final report, South Dakota’s Management of Homeland
Security Grant Program Awards for Fiscal Years 2010 Through 2012. We incorporated
the formal comments from the Office of Policy, Program Analysis and International
Affairs and the South Dakota Office of Homeland Security in the final report.

The report contains seven recommendations aimed at improving the overall
effectiveness of South Dakota’s management of Homeland Security Grant Program
funds. Your office concurred with all of the recommendations. Based on information
provided in your response to the draft report, we consider recommendation #1 resolved
and closed, and recommendations #2 through #7 resolved and open. Once your office
has fully implemented the recommendations, please submit a formal closeout letter to
us within 30 days so that we may close the recommendations. The memorandum should
be accompanied by evidence of completion of agreed-upon corrective actions. Please
email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy, II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
   April 21, 2014

   Ms. Anne L. Richards
   Assistant Inspector General for Audits
   U.S. Department of Homeland Security
   Office of Inspector General, Mail Stop 0305
   245 Murray Lane, SW
   Washington, D.C. 20528

   Dear Ms. Richards:

   Foxx & Company performed an audit of South Dakota’s management of the Department
   of Homeland Security’s State Homeland Security Program grants for fiscal years 2010
   through 2012. The audit was performed in accordance with our Task Order No.
   TPDFIGBPA100006Ͳ0020 dated June 20, 2013. This report presents the results of the
   audit and includes recommendations to help improve South Dakota’s management of
   the audited State Homeland Security Program grants.

   Our audit was conducted in accordance with applicable Government Auditing Standards,
   2011 revision. The audit was a performance audit as defined by Chapter 2 of the
   Standards and included a review and report on program activities with a compliance
   element. Although the audit report comments on costs claimed by South Dakota, we did
   not perform a financial audit, the purpose of which would be to render an opinion on
   South Dakota’s financial statements or the funds claimed in the Federal financial reports
   submitted to the Department of Homeland Security.

   We appreciate the opportunity to have conducted this audit. Should you have any
   questions, or if we can be of any further assistance, please call (513) 241Ͳ1616.

   Sincerely,




   Foxx & Company
   Cincinnati, OH



www.oig.dhs.gov                                                                        OIGͲ14Ͳ89
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audit .................................................................................................................. 3

              Measurement of Goals and Objectives .................................................................. 3
              Recommendation ................................................................................................... 9
              Management Comments and Auditor Analysis ..................................................... 9

              Subgrantee Monitoring ........................................................................................ 10
              Recommendations ............................................................................................... 14
              Management Comments and Auditor Analysis.................................................... 14

              Obligations of Grant Funds to Subgrantees.......................................................... 15
              Recommendation ................................................................................................. 17
              Management Comments and Auditor Analysis ................................................... 17

              Timeliness of Grant Expenditures......................................................................... 17
              Recommendation ................................................................................................. 19
              Management Comments and Auditor Analysis ................................................... 20

              Property Management ......................................................................................... 20
              Recommendations ............................................................................................... 23
              Management Comments and Auditor Analysis ................................................... 23

   Appendixes
              Appendix A:           Objectives, Scope, and Methodology .......................................... 24
              Appendix B:           Management Comments to the Draft Report ............................. 28
              Appendix C:           Description of the Homeland Security Grant Program ................ 36
              Appendix D:           South Dakota Office of Homeland Security
                                    Grant Obligation and Allocation Process ..................................... 37
              Appendix E:           South Dakota Office of Homeland Security
                                    State Administrative Agency Organization Chart ........................ 38
              Appendix F:           Threat and Hazard Identification and Risk Assessment ............... 39
              Appendix G:           Report Distribution ...................................................................... 41


www.oig.dhs.gov                                                                                                                 OIGͲ14Ͳ89
                    OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


   Abbreviations
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSGP    Homeland Security Grant Program
           MAA     mutual aid agreement
           MOU     memorandum of understanding
           OIG     Office of Inspector General
           OHS     Office of Homeland Security
           SAC     Senior Advisory Committee
           SHSP    State Homeland Security Program
           SAA     state administrative agency
           SMART   specific, measurable, achievable, resultsͲoriented, and timeͲ
                   limited
           SPR     state preparedness report
           THIRA   Threat and Hazard Identification Risk Assessment




www.oig.dhs.gov                                                                OIGͲ14Ͳ89
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110Ͳ53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual states’ and territories’ management of State
   Homeland Security Program and, where applicable, Urban Areas Security Initiative
   grants. This report responds to the reporting requirement for South Dakota.

   The audit objectives were to determine whether the State distributed and spent State
   Homeland Security Program grant funds effectively and efficiently, and in compliance
   with applicable Federal laws and regulations. We also addressed the extent to which
   grant funds enhanced the State’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. The
   Federal Emergency Management Agency (FEMA) awarded the State approximately
   $14.6 million in State Homeland Security Program grants during fiscal years 2010
   through 2012.

   The State developed written procedures for program administration, generally spent
   the awards in compliance with applicable laws and regulations, and complied with
   Federal financial reporting requirements. However, we identified areas where the State
   can improve its management and oversight of the grant funds by:

       x   Identifying homeland security strategies with specific, timeͲlimited goals and
           objectives and developing a process for measuring and evaluating the progress
           toward attaining those goals and objectives,
       x   Implementing an effective subgrantee monitoring program,
       x   Processing grant funding obligations to its grantees in a timelier manner,
       x   Spending grant funds within the required timeframes established by FEMA, and
       x   Improving property management and inventory control procedures.

   We have made seven recommendations that call for FEMA and the State to initiate
   improvements, which, if implemented, should help strengthen grant program
   management, performance, and oversight. FEMA concurred with all of the
   recommendations. Written comments to the draft report are incorporated as
   appropriate and are included in appendix B.




www.oig.dhs.gov                                1                                       OIGͲ14Ͳ89
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help state and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, and
   defining capabilities required to address threats. FEMA also provides resources and
   technical assistance to states and U.S. territories, and synchronizes preparedness efforts
   throughout the Nation. Appendix C contains a detailed description of the interrelated
   grant programs that constitute the HSGP.

   HSGP guidance requires the Governor of each state to designate a state administrative
   agency (SAA) to apply for and administer grant funding awarded under the HSGP. The
   SAA is the only entity eligible to apply for HSGP funds. The Governor of South Dakota
   designated the South Dakota Department of Public Safety, Office of Homeland Security
   (OHS) to serve as the SAA for the State. The SAA organization chart is included in
   appendix E.

   The State was awarded $14,551,721 in State Homeland Security Program (SHSP) funds
   during fiscal years (FYs) 2010 through 2012, the period covered by our audit. During this
   period, South Dakota awarded the SHSP grant funds to counties, state agencies, and
   Native American tribes. Figure 1 illustrates the level of SHSP funding the State received
   over a 5Ͳyear period. For the FYs in our review, the State received its highest level of
   SHSP funding in FY 2010, but received about $4 million less from FY 2010 to FY 2012.

   Figure 1: SHSP Funding Levels, FY 2008 to FY 2012
     $8,000,000
                   $6,170,000     $6,524,500      $6,613,200
     $6,000,000                                                $5,137,205

     $4,000,000                                                             $2,801,316
     $2,000,000

             $0
                      2008           2009               2010     2011         2012
   Source: Prepared by Foxx & Company from FEMA data.

   Appendix A contains details on the objectives, scope, and methodology for this audit.



www.oig.dhs.gov                                   2                                      OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Results of Audit
   The State developed written procedures for program administration, generally spent
   the awards in compliance with applicable laws and regulations, and complied with
   Federal financial reporting requirements.

   However, the State can improve its management and oversight of the grant funds by:

        x   identifying specific, timeͲlimited preparedness goals and objectives and
            developing a process for measuring and evaluating the progress toward
            attaining those goals and objectives.
        x   implementing an effective subgrantee monitoring program.
        x   processing grant funding obligations to its grantees in a timelier manner.
        x   spending grant funds within the required timeframes established by FEMA.
        x   improving property management and inventory control procedures.

   These improvements will enhance South Dakota’s effectiveness in the overall use of the
   grant funds to improve its preparedness and response capabilities.

   We were unable to determine the extent to which the SHSP grants enhanced the State’s
   ability to prepare for and respond to disasters and acts of terrorism. The State does not
   have a system to measure preparedness.

            Measurement of Goals and Objectives

            South Dakota’s strategic plans did not establish measurable goals and objectives
            to address significant threats and vulnerabilities, or a context (baseline) for
            measuring capability improvements. The State prepared two strategic plans for
            the audit period of FY 2010 through FY 2012: a plan prepared in 2009 covered
            the period 2010 and 2011 and a plan prepared in 2011 covered 2012Ͳ14. Neither
            plan contained goals, objectives or a baseline that could be easily measured.

            Accordingly, OHS could not demonstrate the extent to which FYs 2010Ͳ12 SHSP
            grant funds enhanced the State’s ability to prevent, prepare for, protect against,
            and respond to natural disasters, acts of terrorism, and other manmade
            disasters.

            Code of Federal Regulations (CFR) Title 44 § 13.40, Monitoring and reporting
            program performance, requires that grantees monitor grant and subgrantee
            supported activities to assure that program goals are being achieved.

www.oig.dhs.gov                                  3                                        OIGͲ14Ͳ89
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           DHS State and Urban Area Homeland Security Strategy Guidance on Aligning
           Strategies with the National Preparedness Goal, dated July 22, 2005, states that
           an objective sets a tangible and measurable target level of performance over
           time against which actual achievement can be compared, including a goal
           expressed as a quantitative standard, value or rate. Therefore, an objective
           should be specific, measurable, achievable, resultsͲoriented, and timeͲlimited
           (SMART):

                  x   Specific, detailed, particular, and focused – helping to identify what is to
                      be achieved and accomplished;
                  x   Measurable – quantifiable, providing a standard for comparison, and
                      identifying a specific achievable result;
                  x   Achievable – the objective is not beyond a state, region, jurisdiction, or
                      locality’s ability;
                  x   ResultsͲoriented – identifies a specific outcome; and
                  x   TimeͲlimited – a target date exists to identify when the objective will be
                      achieved.

           In its FY 2011 Homeland Security Grant Program Guidance and Application Kit,
           FEMA strongly encouraged states and urban areas to update their homeland
           security strategies every two years beginning in 2011. Updates help ensure that
           existing goals and objectives reflect all FEMA mission areas, the National
           Priorities, and implement the whole community approach to emergency
           planning and management. Homeland security strategies should reflect an
           ongoing process of review and refinement as new lessons, new priorities, and
           new challenges, threats, and hazards evolve. The guidance states that updated
           state homeland security strategies provide a context for performing the strategic
           exercise of asking “How are we managing our homeland security programs?”

           According to State officials, the OHS first developed a strategic plan in 2003 and
           it was not updated or revised until 2009. The 2009 plan covered 2010 and 2011
           and identified weaknesses and vulnerabilities throughout South Dakota. It did
           not contain adequately defined goals and objectives to use in measuring
           performance. The goal and objectives in the State’s strategy were not consistent
           with Federal requirements. The State’s goal and objectives were broad based
           and did not provide for tracking and measuring the impact of funds expended for
           equipment, training, and exercises. In response to the question “Did the state
           evaluate its allocations and spending each year in relation to the needs
           assessment, strategic plan, and funds previously provided?” the State’s response



www.oig.dhs.gov                                     4                                         OIGͲ14Ͳ89
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           was that evaluations “were not documented but informally evaluated through
           decisions at the SAC (Senior Advisory Committee) meetings.”

           The 2010Ͳ2011 strategy contained only one goal which was: “To ensure that all
           jurisdictions within South Dakota can detect, deter, mitigate, respond to, and
           recover from a natural or manmade disaster.” The strategy listed nine objectives
           under this goal. The objectives were not prioritized in any particular order, as all
           of the objectives were equally important to achieve the overall goal. Each
           objective contained a number of steps to be completed; steps for each
           objectives ranged from 6 to 24, and in total, there were more than 90 separate
           steps.

           Our analysis of the goals, objectives and the steps to be completed identified
           that the 2010Ͳ2011 goals and objectives: (1) were not specific, detailed,
           particular, or focused; (2) did not identify outcomes; and (3) did not establish
           timeframes for the completion of the objectives. Several of the steps were
           identified as “completed” or for dates that were prior to the initiation of the
           2010 and 2011 timeframe. Table 1 illustrates examples of objectives and some
           steps to be completed in the State’s strategy, as well as our assessment.

           Table 1: Examples from South Dakota’s 2010 – 2011 Strategic Plan
                      Objective                         Steps                 Assessment
            Coordinate local and tribal   Nine steps including:          The objective is not:
            activities related to         x Identify and assist          x Specific
            prevention, planning,            jurisdictions with          x Measurable
            mitigation, response, and        development,                x ResultsͲoriented
            recovery from a natural or       implementation, and
            manmade incident                 evaluation of local and     Time frame for
            through mutual aid               tribal MOUs and MAAs.       completion not listed.
            agreements (MAA),             x Ensure mobile command
            memorandums of                   units are strategically
            understanding (MOU).             placed throughout the
                                             State and ensure MOUs are
                                             in place.
            Promote and enhance           Nine steps including:          The objective is not:
            security intelligence, and    x Enhance the capability of    x Specific
            equipment at critical            local emergency operation   x Measurable
            infrastructure sites in          centers and the State       x ResultsͲoriented
            Federal, state, tribal and       emergency operation
            local levels of government       center through the          Time frame for
            as well as the private           acquisition of additional   completion not listed.
            sector within South              resources to include back


www.oig.dhs.gov                                   5                                          OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                      Objective                      Steps                    Assessment
            Dakota to prevent,             up power supply.
            protect, prepare for,        x Determine and acquire
            respond to and recover         funding sources and other
            from a chemical,               resources needed to
            biological, radiological,      conduct exercises at critical
            nuclear, or explosive          infrastructure sites.
            incident or other
            manmade incident.
            Enhance the capability of    Seven steps including:          The objective is not:
            state, local, tribal         x Review animal response        x Specific
            governments and private        plans to include control,     x Measurable
            entities to detect, protect,   destruction, and disposal.    x ResultsͲoriented
            respond to, recover from, x Continue to identify and
            and mitigate incidents of      analyze local at risk sites,  Time frame for
            terrorism involving plants,    events, animals, and          completion not listed.
            livestock, other animals,      animal products.
            and associated industries.
           Source: Foxx & Company analysis of State Homeland Security Strategic Plan (2010 – 2011)

           Our analysis of the State’s 2012Ͳ2014 strategic plan, dated January 2012,
           identified that this plan did not contain adequately defined goals and objectives
           to use in measuring performance. The goals and objectives in the State’s strategy
           were not consistent with Federal requirements. The State’s goals and objectives
           were broadͲbased and did not provide for tracking and measuring the impact of
           funds expended for equipment, training, and exercises.

           The State officials acknowledged that they did not have a formal assessment tool
           to measure improvements or preparedness resulting from the use of grant
           funds. They said that the 2012Ͳ2014 strategic plan was written in narrative
           fashion and that specific performance measures were not the main objective.

           Table 2 shows examples of the goals and objectives included in the State’s
           2012Ͳ2014 strategy. These examples show that the goals and objectives:
           (1) were not specific, detailed, particular, or focused; (2) did not identify
           outcomes; and (3) did not establish timeframes for the completion of the
           objectives.




www.oig.dhs.gov                                  6                                         OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 2: Examples from South Dakota’s 2012Ͳ2014 Strategic Plan
                           Goal                         Objective         Assessment
            Develop capabilities of    x Continue to monitor              The  goal is not
            first responders and          potential threats.              measurable. Time
            homeland security          x Provide training to first        frame for measuring
            partners to ensure a          responders for all hazard       goal not listed. The
            coordinated response to       threats.                        objective is not:
            incidents.                 x Provide continued support        x Specific
                                          for multiͲdiscipline/multiͲ     x Measurable
                                          agency exercises.               x ResultsͲoriented
            Facilitate and promote     x Conduct critical infrastructure The goal is not
            effective planning and        and key resources               measurable. Time
            preparation at all levels     vulnerability assessments.      frame for measuring
            including assessment and   x Incorporate risk assessment      goal not listed. The
            evaluation.                   information into                objective is not:
                                          comprehensive plan.             x Specific
                                       x Evaluate preparedness            x Measurable
                                          through executives at all       x ResultsͲoriented
                                          government levels.
                                       x Conduct specialized team
                                          planning.
                                       x Develop cyber security
                                          recommendations based on
                                          the Risk Management
                                          Framework Model.
           Source: Foxx & Company analysis of State Homeland Security Strategic Plan (2012 – 2014)

           Furthermore, the South Dakota state agencies received 20 percent of the total
           grant funding for FYs 2010Ͳ12. However, there was minimal reference to how
           the state agencies were supposed to address the goals and objectives stated in
           the strategies.

           In April 2012, FEMA required state and local governments receiving FEMA
           preparedness grants to complete Threat and Hazard Identification and Risk
           Assessments (THIRA) by December 31, 2012. The THIRA provided a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.
           In addition to the THIRA, states and territories receiving FEMA preparedness
           grants were required to annually submit a state preparedness report (SPR).

           FEMA officials stated that THIRA results and the SPR would provide a
           quantitative summary of preparedness, document current capabilities and

www.oig.dhs.gov                                  7                                         OIGͲ14Ͳ89
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           potential shortfalls, and set priorities for addressing shortfalls. FEMA officials
           also stated that the SPR results would be used by the states to identify funding
           requirements and set priorities for subgrantee project applications. The grant
           application (investment justification) must demonstrate how proposed projects
           address gaps and deficiencies in delivering one or more core capabilities outlined
           in the National Preparedness Goal and address capability gaps reported in the
           SPR.

           We reviewed the State’s THIRA and found that South Dakota OHS developed a
           THIRA in compliance with DHS Comprehensive Preparedness Guide 201 released
           in April 2012. We found that the State’s THIRA development process:

                  x   incorporated a whole community approach throughout the THIRA
                      process,
                  x   contained procedures that were sufficient for completing the THIRA, and
                  x   documented the THIRA process, including support data used to complete
                      the THIRA.

           We also evaluated the THIRA document by comparing it to the State’s 2012–
           2014 strategic plan. We found that the threats, risks, and capabilities in the
           THIRA were consistent with those listed in the strategic plan.

           The State acknowledged that written specific performance measures were not
           the main objective of the strategies. In addition, the State had not documented
           its evaluations covering progress, compiling key management information,
           tracking trends, or keeping the strategies on track. FEMA’s Region VIII July 30Ͳ21,
           2012 onͲsite monitoring report for South Dakota stated that state personnel
           were tasked heavily with maintaining current capabilities and responding to
           disasters throughout the State. This left only a small amount of time to work on
           increased capabilities.

           Without adequate measurable goals and objectives, the State does not have a
           sufficient basis to evaluate the effect of grant expenditures on its preparedness
           and response capabilities. Furthermore, it is difficult to provide a context for
           performing the strategic exercise of asking “How are we managing our homeland
           security programs?” and prevented the identification of baselines from which
           improvement could be measured and future funding needs assessed.




www.oig.dhs.gov                                   8                                      OIGͲ14Ͳ89
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, South Dakota Office of Homeland Security to:

           Recommendation #1:

           Comply with FEMA guidance to ensure that:

                  a. the State’s strategy is updated as required and includes goals and
                     objectives applicable to capabilities that are specific, measurable,
                     achievable, results oriented, and time limited (SMART),
                  b. baselines are identified for the capabilities that will facilitate the
                     measurement of progress toward achieving the goals and objectives, and
                  c. formalize a plan to document progress, compile key management
                     information, tract trends, and keep the strategy on track.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #1: FEMA concurred with this
           recommendation. FEMA has established and implemented a system to help
           states and urban areas establish measurable goals and objectives through its
           THIRA methodology, which was released in 2012. States were required to submit
           THIRAs by December 31, 2012. In addition, states are required to annually
           submit SPRs to FEMA. The THIRA and SPR results highlight gaps in capability and
           the progress of grantees in closing those gaps over time. Grantees address
           documented capability requirements and gaps in their investment justifications
           submitted in the grant application. FEMA provided copies of South Dakota’s FY
           2012 THIRA and SPR.

           FEMA stated that it addressed the recommendation for states to establish
           SMART goals and objectives by requiring the states to use a set of tools including
           the THIRA, SPR, and investment justifications. These tools enable the states to
           systematically measure improvements in capabilities and statewide
           preparedness. Based on this information, FEMA requested that this
           recommendation be resolved and closed.

           The State agreed with the recommendation. Since the completion of fieldwork in
           December 2013, the State published and implemented in January 2014, a
           strategic plan for FY 2014 – 2017 that incorporates SMART goals and objectives.
           The plan identifies baseline capabilities that the State plans to use to measure

www.oig.dhs.gov                                 9                                       OIGͲ14Ͳ89
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           progress towards goals and objectives. It included specific and measurable
           objectives and timelines for assessing progress.

           Auditor Analysis: The corrective actions taken by FEMA and the State are
           responsive to the intent of recommendation #1. This recommendation is
           resolved and closed.

           Subgrantee Monitoring

           The OHS did not adequately monitor subgrantee activities for the FYs 2010Ͳ12
           DHS awards. Although the State provided a list of 19 subgrantee monitoring
           reviews for the funding in our audit scope, only 10 were completed; the other 9
           were marked incomplete. The last monitoring report completed was on
           September 20, 2011 (see table 3). As a result, the State could not be assured that
           subgrantees’ operations and grant related activities complied with Federal
           requirements.

           Specific guidance on grantee monitoring requirements is provided by the CFR,
           Office of Management and Budget, FEMA, and the State:

                  x   44 CFR §13.40, Monitoring and Reporting Program Performance:
                      Grantees are responsible for managing the dayͲtoͲday operations of
                      grantͲ and subgranteeͲsupported activities and ensuring grant recipients
                      comply with applicable Federal requirements and achieve program
                      performance goals. This regulation also specifies that grantees’
                      monitoring programs must cover each program, function, or activity.
                  x   Office of Management and Budget Circular AͲ133, Audits of States, Local
                      Governments, and NonͲprofit Organizations, Compliance Supplement,
                      Part 3ͲM: Grantees are responsible for monitoring subgrantees’ use of
                      Federal awards through reporting, site visits, regular contact, or other
                      means. Grantee monitoring should provide reasonable assurance the
                      subgrantee administers Federal awards in compliance with laws and
                      regulations, as well as the provisions of contracts or grant agreements
                      and that performance goals are achieved.
                  x   FEMA, Homeland Security Grant Program Guidance and Application Kit:
                      Grant recipients are responsible for monitoring award activities, including
                      subawards, to provide reasonable assurance that the Federal award is
                      administered in compliance with requirements.
                  x   South Dakota’s Grants Management Manual, Section 10: The
                      responsibilities and procedures for monitoring subgrantees to ensure
                      fiscal, compliance, and programmatic responsibilities are fulfilled based

www.oig.dhs.gov                                   10                                        OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  upon the regulations cited in CFR Title 44. Monitoring includes onͲsite
                  visits and desk audits, and addresses programmatic, financial, and capital
                  asset/equipment monitoring. The State has standard forms to use to
                  document monitoring activities and includes guidance for onͲsite and
                  desk monitoring.

           Although the State had a subgrantee monitoring schedule, it was not being
           followed. As shown in table 3, 9 of the 19 scheduled monitoring visits were
           incomplete and there has been no subgrantee monitoring since September
           2011. Some of the completed monitoring reviews were for awards prior to 2010.

           Table 3: Status of Subgrantee Monitoring
                        South Dakota’s Office of Homeland Security Monitoring
                County               City          Date Monitored           Status
            Brown            Aberdeen                08/09/2011           Complete
            Clark            Clark                   07/18/2012          Incomplete
            Clark            Raymond                 07/18/2012          Incomplete
            Clark            Willow Lake             07/18/2012          Incomplete
            Codington        Watertown               07/19/2012          Incomplete
            Codington        Wallace                 07/19/2012          Incomplete
            Deuel            Clear Lake              07/18/2012          Incomplete
            Edmunds          Roscoe                  08/09/2011           Complete
            Faulk            Faulkton                08/10/2011           Complete
            Grant            Milbank                 07/18/2012          Incomplete
            Haakon           Midland                 08/23/2011          Incomplete
            Haakon           Phillip                 08/23/2011          Incomplete
            Lincoln          Canton                  09/20/2011           Complete
            Lincoln          Harrisburg              09/20/2011           Complete
            Meade            Sturgis                 08/23/2011           Complete
            Minnehaha        Sioux Falls             09/19/2011           Complete
            Minnehaha        Renner                  09/19/2011           Complete
            Pennington       Rapid City              02/04/2011           Complete
            Pennington       Rapid City              08/25/2011           Complete
           Source: South Dakota’s OHS.

           We reviewed the monitoring reports completed for Minnehaha and Pennington,
           two counties included in our review. The Minnehaha monitoring was completed
           in September 2011 and covered grant years 2007Ͳ10. The report contained no
           findings. The Pennington reports covered grant year funding prior to the scope
           of our review and did not contain any significant findings.



www.oig.dhs.gov                                11                                      OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Officials told us during the audit field work that the State planned to have six
           regional coordinators perform the monitoring function. However, we found that
           this had not occurred. In interviews with the regional coordinators responsible
           for the counties and municipalities we reviewed, we were told that they have
           not performed any subgrantee monitoring. Also, the regional coordinators told
           us that they had not received any guidance or instructions from the State on
           how the monitoring was to be performed.

           Monitoring Completed by other Entities

           We reviewed the South Dakota’s Department of Legislative Audit reports of
           counties and municipalities for the grant years 2010Ͳ12 to determine if there
           were any findings or deficiencies identified for the jurisdictions included in our
           review, and identified two: Beadle County and Rapid City.

           The Beadle County audit report for the two years ended December 31, 2010,
           identified significant deficiencies in the preparation of the Schedule of
           Expenditures of Federal Awards, maintaining of Federal grant files, and
           monitoring of Federal award subrecipients. In response to the report, Beadle
           County agreed and stated that it had established grant files and implemented
           procedures and controls to correct the audit findings.

           The Rapid City audit report for the fiscal year ended December 31, 2012,
           identified that the City did not have an overall review process to ensure that all
           grant requirements were met. The report stated that without proper review and
           tracking processes, the City could fail to maintain compliance with Federal
           grants. It recommended strengthening its grant monitoring procedures. The
           City’s corrective action plan stated that it would improve the grant reporting
           review process and comply with grant requirements.

           In addition, we reviewed a FEMA Region VIII site visit report (monitoring
           completed July 2012) of the South Dakota DHS grant funding. The report made
           no reference to the fact that OHS was not performing the required monitoring of
           subrecipients.

           We also reviewed an April 2011 assessment of the regional response teams,
           conducted by the University of South Dakota. The report stated that
           improvement was needed in the coordination and standardization of the
           response teams. In particular, the teams wanted greater communications,
           information, and direction from OHS in order to prioritize their spending and
           preparations. The report concluded that the regional response teams have

www.oig.dhs.gov                                 12                                        OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           evolved largely as a function of available funding and existing capacity, and in a
           vacuum without a great deal of vision, standardization, or direction from the
           State.

           The above examples of monitoring completed by outside entities identified
           findings and areas needing improvement in the State’s management of the HSGP
           and illustrate the importance of monitoring.

           According to OHS officials, monitoring and desk reviews have been infrequent.
           None have been performed in almost two years because of a shortage of staff.
           State officials told us that prior to 2011 monitoring was “hit or miss.” There were
           not enough personnel to complete monitoring and that there had also been a lot
           of staff turnover. In addition, the State officials said that documentation of
           monitoring had been inadequate and that tracking performance had not been
           done. The OHS program manager also told us that plans to have the regional
           coordinators complete monitoring had not occurred because of time constraints.
           He cited disaster declarations as the coordinators’ priority.

           State Plans for Monitoring

           During our preͲexit conference with the State in December 2013, State officials
           told us that the State had retained the services of its former finance officer and
           dedicated a team of staff from the Department of Public Safety’s Finance Office,
           Office of Homeland Security, Office of Emergency Management, and Office of
           Highway Safety to address monitoring activities. During the July through
           December 2013 timeframe, this team developed new officeͲbased and onͲsite
           monitoring procedures. Accomplishments included:

              x   Development of a comprehensive officeͲbased grant monitoring
                  questionnaire that will be completed by selected grant subrecipients. The
                  questionnaire includes detailed CFR references in an attempt to better
                  educate subrecipients in their grant responsibilities. The team tested the
                  questionnaire and will test its onͲsite monitoring procedures in early 2014.

              x   Consulted with the Iowa Homeland Security and Emergency Management
                  Department and obtained information on their monitoring practices,
                  monitoring documents, and selection criteria. The team is assessing the
                  information for use in the State’s monitoring activities.




www.oig.dhs.gov                                 13                                        OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


              x   Established a departmentͲwide grant equipment database that includes
                  equipment exceeding $5,000 funded from Homeland Security, Emergency
                  Management, and Highway Safety grants.

           The State was unable to obtain firstͲhand knowledge of specific subgrantee
           administrative problems or other significant issues due to ineffective onͲsite or
           desk reviews. The OHS could not provide adequate assurance that subgrantees
           adhered to Federal requirements and grant guidelines, or whether SHSP funding
           was achieving programmatic goals and objectives. Because the State had not
           fully implemented its revised monitoring plan during the audit field work, we did
           not evaluate its effectiveness.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, South Dakota Office of Homeland Security to:

           Recommendation #2:

           Ensure that the new office based and onͲsite monitoring procedures provide an
           adequate protocol for monitoring subgrantees to include:
              a. tools, such as performance monitoring checklists, for evaluating
                  subgrantee compliance with Federal requirements, and
              b. criteria and methodologies for assessing subgrantees efficiency and
                  effectiveness in accomplishing program objectives.

           Recommendation #3:

           Provide sufficient resources to fully implement the new monitoring procedures.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendations #2 and #3: FEMA concurred
           with these recommendations. FEMA will require the Director of OHS to ensure
           that its subgrantee monitoring policies and procedures comply with 44 CFR
           § 13.40, Monitoring and Reporting Program Performance. The estimated
           completion date for these recommendations is August 27, 2014.

           The State agreed with these recommendations. Since the completion of
           fieldwork in December 2013, the State developed and implemented new
           monitoring procedures and tested the procedures from January through March

www.oig.dhs.gov                               14                                       OIGͲ14Ͳ89
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           2014. The State reported that the officeͲbased and onͲsite monitoring (1) found
           no major noncompliance findings and (2) made recommendations to include
           additional information in property records to be compliant with Federal
           regulations.

           Regarding resources for implementing the new monitoring procedures, the State
           responded that the monitoring will be coordinated by the State’s finance office.
           Physical verification of equipment will be covered by the State’s six regional
           coordinators and four law enforcement liaisons, and that their progress will be
           monitored on a quarterly basis.

           Auditor Analysis: FEMA’s and the State’s proposed corrective actions are
           responsive to the intent of recommendations #2 and #3. These
           recommendations are resolved and will remain open until the proposed
           corrective actions are fully implemented.

           Obligations of Grant Funds to Subgrantees

           The SAA did not always meet the requirements for obligating SHSP funds to local
           units of government within 45 days of the receipt of the funds for the FYs 2010
           and 2012 awards. As a result, the SAA was not in compliance with FEMA
           requirements. Local governments and first responders were not provided
           Federal funding in a timely manner to help enhance capabilities to prevent,
           protect against, respond to, and recover from terrorist attacks, major disasters,
           and other emergencies.

           According to FEMA Homeland Security Grant Program Guidance, state
           administrative agencies must obligate and make available to local government
           units at least 80 percent of SHSP grant funds within 45 days of FEMA’s award
           date. The obligation must include the following requirements:

                  x   There must be some action to establish a firm commitment on the part of
                      the awarding entity.
                  x   The action must be unconditional on the part of the awarding entity (i.e.,
                      no contingencies for availability of funds, and all special conditions
                      prohibiting obligation, expenditure, and drawdown must be removed).
                  x   There must be documentary evidence of the commitment.
                  x   The award terms must be communicated to the official grantee.

           Table 4 shows the State communicated the award terms to the subgrantees
           generally within the 45 day timeframe in FY 2011. However, it took the State
www.oig.dhs.gov                                   15                                       OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           from 77 to 188 days in FY 2010 and from 60 to 108 days in FY 2012 to
           communicate the terms and fulfill the obligation requirements.

           Table 4: Days Between Award to State and Agreements with Subgrantees
                                                     Days between Award to
              Grant                    Date of                                  Amount of
                          County                       State and Agreement
              Year                    Agreement                                SHSP funding
                                                         with Subgrantees
              2010       Beadle        12/21/10                 84               $602,694
              2010       Davison       12/14/10                 77               $408,800
              2010       Minnehaha     12/14/10                 77              $1,438,907
              2010       Perkins       12/28/10                 91               $366,087
              2010       Hughes        04/04/11                 188                $83,663
              2010       Pennington    03/15/11                 168              $701,600
              2011       Beadle        11/22/11                 47               $364,464
              2011       Davison       11/15/11                 40               $300,632
              2011       Hughes        11/21/11                  46                $50,335
              2011       Minnehaha     11/22/11                 47               $849,187
              2011       Pennington    11/15/11                 40               $437,943
              2011       Perkins       11/08/11                  33              $299,173
              2012       Beadle        10/31/12                 60                 $26,098
              2012       Davison       12/18/12                 108                $26,098
              2012       Minnehaha     11/13/12                 73               $272,236
              2012       Pennington    11/09/12                 69               $106,000
              2012       Hughes        11/08/12                 68                 $28,000
           Source: Foxx summary of South Dakota grant documentation.

           The State’s OHS program manager said that the State’s lengthy process for
           obligating funds to the subgrantees caused the delays. This process involved
           executing grant agreements to document the awards to the subgrantees – the
           state agencies, counties, and tribes. See appendix D for a detailed description.

           To utilize the funding for FYs 2010 and 2011, the SAA established a regional
           leadership structure of eight regions and selected a lead county for each region.
           The lead county then procured items for subrecipients Ͳ county, city,
           municipality, and/or tribal entities.

           For FY 2012, the SAA changed the funding utilization process. The SAA
           established six regions and regional coordinators. The regional coordinators met
           with review committees consisting of two people invited from each county and
           tribe – a law enforcement official and emergency manager – who then awarded
           the funds competitively, based on the applications.


www.oig.dhs.gov                                16                                        OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The State was not always complying with FEMA grant obligation requirements.
           When the 45 day requirement was not met, the subgrantees had less time to
           spend the grant funds and react to problems or areas needing attention.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, South Dakota Office of Homeland Security to

           Recommendation #4:

           Review the process used to obligate SHSP funding to subgrantees to identify
           ways to shorten the process to ensure that funds are available to subgrantees in
           a timelier manner.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #4: FEMA concurred with the
           recommendation. FEMA will require the Director of OHS to review the process
           used to obligate SHSP funding to subgrantees to identify ways to shorten the
           process. The estimated completion date for this recommendation is August 27,
           2014.

           The State responded that it currently obligates funds to subgrantees on a
           regional level within the 45Ͳday obligation period. To formalize the obligation of
           funding within 45 days for future grant awards, the State will have the regional
           representatives and the State sign an agreement that declares the regional
           award amount and the project period.

           Auditor Analysis: FEMA’s and the State’s proposed corrective actions are
           responsive to the intent of recommendation #4. This recommendation is
           resolved and will remain open until the proposed corrective actions are fully
           implemented.

           Timeliness of Grant Expenditures

           The State was not expending SHSP funds in a timely manner. As of June 30, 2013
           the State still had 34 percent of its 2011 award and 72 percent of its 2012 award
           remaining. The period of performance for both awards ends on August 31,



www.oig.dhs.gov                                17                                          OIGͲ14Ͳ89
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


             2014.1 The State or its subgrantees could lose the opportunity to enhance their
             capabilities to prevent, protect against, respond to, and recover from terrorist
             attacks, major disasters, and other emergencies. According to FEMA guidance,
             extensions for periods of performance will require more information than in the
             past in order to obtain FEMA approval.

             Table 5 shows the amount awarded, expenditures, and percentage of funds not
             spent of SHSP funds for each of the three grant years included in our audit,
             based on the State’s June 30, 2013 expenditures.

             Table 5: FY 2010Ͳ12 SHSP Expenditures as of June 30, 2013
                                                                                            Percent
                             Period of                      Expenditures
                Grant                        Amount                                         Unspent
                           Performance                      as of June 30,     Unspent
                Year                         Awarded                                       as of June
                             End Date                           2013
                                                                                            30, 2013
                 2010        07/31/13        $6,613,200        $6,487,343       $125,857      2%

                 2011        08/31/14        $5,137,205        $3,392,009     $1,745,196     34%

                 2012        08/31/14        $2,801,316          $773,995     $2,027,321     72%
             Source: Foxx summary of South Dakota grant documentation.

             Comparing the period of performance ending date with the unspent amounts
             showed that the State had not been efficient in its expenditures of grant funds.
             The State would be required to spend more than $3.7 million in one year for the
             FYs 2011 and 2012 grant years.

             The State’s expenditure rate was also cited in a FEMA Region VIII report for a
             monitoring visit July 30Ͳ31, 2012. This report stated that for the FY 2010 grant
             funding, with about one year remaining on the grant, almost half (more than
             $3 million) of the funds were unspent.

             The timelines of expenditures was especially acute for the South Dakota state
             agencies that receive SHSP funding. As of June 30, 2013, state officials informed
             us that none of the funds awarded to the state agencies had been expended for
             the last two fiscal years in the scope of our review. As shown in table 6, the state
             agencies have slightly more than 1 year to spend all of their FY 2011 and 2012
             grant funds.



   1
       The FY 2012 period of performance was reduced from 36 months to 24 months.

www.oig.dhs.gov                                      18                                         OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Table 6: FY 2010Ͳ2012 SHSP South Dakota State Agency Award Expenditures
                                                                                  Percent
                  Fiscal          Award
                                               Expenditures      Unspent       Unspent as of
                  Year           Amount
                                                                               June 30, 2013
                  2010           $1,322,640         $1,218,702     $103,939         8%

                  2011           $1,157,929                $0    $1,157,929        100%

                  2012             $672,316                $0      $672,316        100%
           Source: Foxx summary of South Dakota grant documentation

           Historically, spending SHSP grant funds in a timely manner has been an issue for
           South Dakota. Minutes from SAC meeting in 2011 and 2013 indicated that the
           State’s local agencies were unable to spend SHSP grant funds, and that
           significant unexpended balances existed. The SAC meetings were the only place
           that we could identify where the inability to spend funds was discussed.

           While the SAA was tracking the rate of expenditures, it needed to be more
           proactive in identifying priorities and developing spending plans to meet the
           grant fund deadlines. In addition, the SAA was without a director from June to
           September 2013, which may have impacted expenditure decision making. A new
           director was named in September.

           Because FEMA has strengthened the requirements for obtaining grant period
           extensions, the State may not be provided grant extensions. Also, delays in
           expenditures of grant funds can impede state and subgrantees’ opportunities to
           enhance the most critical preparedness and response capabilities. Delays may
           result in reallocating of funding to lesser priorities to ensure funding does not
           expire. Spending funds in a relatively short period of time raises questions about
           the effectiveness of processes and procedures, and whether the grant funds
           would be spent on projects or equipment that will best address the State’s
           homeland security needs.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, South Dakota Office of Homeland Security to:




www.oig.dhs.gov                                19                                         OIGͲ14Ͳ89
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendation #5:

           Develop and implement procedures, with appropriate controls such as enforced
           deadlines, to ensure that grant funds are expended in a timely manner, with
           special emphasis on the state agencies.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #5: FEMA concurred with the
           recommendation. FEMA will require the Director of OHS to develop and
           implement procedures, with appropriate controls such as enforced deadlines, to
           ensure that grant funds are expended in a timely manner. Special emphasis will
           be placed on the state agencies. The estimated completion date for this
           recommendation is August 27, 2014.

           The State responded that it currently provides subgrantees enforced deadlines
           for their projects, and that if a project is not completed in time, the money is
           reallocated to other projects. It also stated the fact that the State has never
           returned any Homeland Security Federal funding and that it will ensure that
           grant funds are expended by the end of the project period.

           Auditor Analysis: FEMA’s and the State’s proposed corrective actions are
           responsive to the intent of recommendation #5. This recommendation is
           resolved and will remain open until the proposed corrective actions are fully
           implemented.

           Property Management

           State subgrantees did not always maintain inventory records in accordance with
           Federal requirements. Of the subgrantees we included in our review, we found:

                  x   the counties and the state agencies we visited said they performed
                      periodic monitoring of the equipment purchased with SHSP funding, but
                      none were able to provide documentation of the monitoring visits, and
                  x   three of the six counties were not maintaining inventory records in
                      accordance with Federal requirements.

           The Native American tribe selected for review did not provide any inventory or
           monitoring information.



www.oig.dhs.gov                                  20                                        OIGͲ14Ͳ89
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           We did find that the SAA was maintaining inventory records that met Federal
           requirements for the six state agencies that we reviewed.

           According to 44 CFR § 13.32 (d) Management requirements, procedures for
           managing equipment (including replacement equipment), whether acquired in
           whole or in part with grant funds, include the following minimum requirements:

                  x   Maintain property records that include the property’s cost, description,
                      identification number, serial number, location, use, condition, and
                      ultimate disposition, as well as the percentage of Federal participation in
                      the cost of the property.
                  x   A physical inventory of the property must be taken and the results
                      reconciled with the property records at least every two years.
                  x   A control system must be developed to ensure adequate safeguards to
                      prevent loss, damage, or theft of the property. Any loss, damage, or theft
                      shall be investigated.

           The South Dakota Grant Administration manual states that records management
           is essential to ensure requirements are achieved and documented. All records
           must be kept for a minimum of three years after the grant closes unless
           superseded by Federal or state statute. Equipment records must be maintained
           for the life of the equipment and after disposition of the equipment for three
           years. Equipment valued at $5,000 or more at time of purchase is considered a
           capital asset and subject to specific Federal property regulations. The manual
           also states that property records (including equipment) must be maintained
           using 44 CFR § 13.32 (d) Management requirements cited above.

           In addition, South Dakota’s Grant Administrative Manual states that at least once
           every two years, the subgrantee is required to perform a physical inventory of
           the property and reconcile the results with the property records. A control
           system must be developed to ensure adequate safeguards to prevent loss,
           damage, or theft of the property. Any loss, damage, or theft shall be
           investigated. Adequate maintenance procedures must be developed to keep the
           property in good condition.

           For the 13 subgrantees in our review (6 counties, 6 state agencies, and 1 Native
           American tribe), table 7 indicates whether their property records included the
           required Federal information. As shown, subgrantee property records were
           missing required information.



www.oig.dhs.gov                                   21                                        OIGͲ14Ͳ89
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Table 7: Summary of Subgrantee Inventory Record Information
                                                          Did Subgrantee Inventory Records
            Information Required by 44 CFR 13.32          Contain Required CFR Information?
                                                               Yes                  No
            Title holder                                        11                   2
            Item description                                    11                   2
            Cost                                                11                   2
            Date of acquisition                                 10                   3
            Location                                            9                    4
            Serial number                                       11                   2
            Use of the property                                 9                    4
            Condition                                           9                    4
            Identification number                               11                   2
            100% Federal funded                                 10                   3
           Source: Foxx summary of South Dakota grant documentation.

           In September 2013, we requested documentation from the one Native American
           tribe to support acquisition, inventory, and monitoring efforts for items and
           services acquired with SHSP funding. Subsequently, the audit team made four
           follow up requests for this information between September and November. As
           of the completion of field work (December 2013), the tribe had not provided the
           information. We notified the State officials of this issue in December 2013.

           Beginning with 2012, OHS had planned for the regional coordinators to monitor
           assets acquired with SHSP funding as part of their duties. At the time of our
           review, the coordinators we talked to said that they had not completed any
           monitoring. The regional coordinators also told us they needed guidance and
           direction from the state office on how often to monitor and what information to
           include. The coordinators also said that they had little time available to devote to
           monitoring, given their other responsibilities.

           Subgrantees did not maintain required property management records to identify
           equipment procured with Federal funds. This type of internal control is needed
           to ensure proper maintenance, safeguarding, and accounting for millions of
           dollars of assets procured with Federal funds. In addition, without this
           information, the subgrantees and OHS could not can make sound management
           decisions regarding the existence of or need for equipment.


www.oig.dhs.gov                                 22                                       OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, South Dakota Office of Homeland Security to:

           Recommendation #6:

           Communicate and reinforce Federal requirements for subgrantees to maintain
           property management systems and property records for equipment purchased
           with Federal funds.

           Recommendation #7:

           Verify subgrantee compliance with property management requirements.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendations #6 and #7: FEMA concurred
           with these recommendations. FEMA will require the State to ensure that its
           subgrantee property management systems and records comply with 44 CFR
           § 13.32 Equipment. FEMA will also require the Director of OHS to verify
           subgrantee compliance with property management requirements. The estimated
           completion date for these recommendations is August 27, 2014.

           The State agreed with these recommendations and referred to the newly
           implemented monitoring procedures and activities completed from January
           through March 2014. As part of these actions, the State has begun to
           (1) communicate and reinforce Federal requirements for subgrantees to
           maintain property management systems and records and (2) verify that
           subgrantees are in compliance with these requirements.

           Auditor Analysis: FEMA’s and the State’s proposed corrective actions are
           responsive to the intent of recommendations #6 and #7. These
           recommendations are resolved and will remain open until the proposed
           corrective actions are fully implemented.




www.oig.dhs.gov                               23                                      OIGͲ14Ͳ89
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security Office of Inspector General was established by
   the Homeland Security Act of 2002 (Public Law 107Ͳ296) by amendment to the Inspector
   General Act of 1978. This is one of a series of audit, inspection, and special reports
   prepared as part of our oversight responsibilities to promote economy, efficiency, and
   effectiveness within the Department.

   This report provides the results of our work to determine whether South Dakota spent
   SHSP grant funds (1) effectively and efficiently, and (2) in compliance with applicable
   Federal laws and regulations. We also addressed the extent to which funds enhanced
   the State’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP funding, equipment, and
   supported programs were reviewed for compliance. The scope of the audit included the
   SHSP grant awards for FYs 2010, 2011, and 2012. The HSGP awards to South Dakota for
   FYs 2010 through 2012 are included in table 8.

   Table 8: State Homeland Security Program Funding
                             State Homeland Security Program Funding
                                      FYs 2010 through 2012

           Funded Activity            FY 2010        FY 2011       FY 2012        Total
   State Homeland Security
                                      $6,613,200     $5,137,205   $2,801,316    $14,551,721
   Program
   Source: FEMA.

   We reviewed the plans developed by South Dakota to improve preparedness and respond
   to all types of hazards, the goals set within those plans, the measurement of progress
   toward the goals, and the assessments of performance improvement that result from
   this activity.

   We reviewed the designated SAA and the subgrantees of FYs 2010 through 2012 grant
   funds. The subgrantees included:




www.oig.dhs.gov                                 24                                        OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           State Agencies:
               x State Animal Industry Board
               x State Bureau of Information and Telecom
               x State Department of Criminal Investigation
               x State Driver’s Licensing Agency
               x State Office of Homeland Security
               x State Highway Patrol

           Counties/Tribe:
              x Beadle
              x Davison
              x Hughes
              x Minnehaha
              x Oglala Sioux Tribe
              x Pennington
              x Perkins

   In South Dakota, the SAA awarded SHSP funding to subgrantees Ͳ counties and tribes Ͳ
   who then acquired capital assets and equipment, or provided funding for training and
   exercises for the counties or tribes, or for subrecipients – cities, municipalities, or first
   responders.

   We visited the following to verify the existence of assets acquired by the subgrantees
   for these subrecipients:

           Cities, Municipalities, or First Responders:
               x City of Hartford
               x City of Huron Fire Department
               x City of Huron Police Department
               x City of Mitchell Fire and Police
               x City of Pierre Police Chief
               x City of Sioux Falls Public Safety, Metro Communications
               x City of Sioux Falls Public Safety, Law Enforcement
               x City of Sioux Falls Red Cross
               x City of Sioux Falls Water Purification Plant
               x Davison County Public Safety
               x Pennington County Sheriff Department
               x Perkins County Sheriff Department
               x Rapid City Fire Department
               x Rapid City School District
www.oig.dhs.gov                                  25                                          OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   We also visited the State’s fusion center in the City of Sioux Falls.

   For each subgrantee, we interviewed responsible officials, reviewed documentation
   supporting state and subgrantee management of grant funds, and physically inspected
   some of the equipment procured with the grant funds. We also met with city and
   municipality officials and representative first responder organizations such as fire,
   police, and emergency medical services. In these meetings, we verified the existence of
   items procured with SHSP funding and discussed benefits the grant funds have brought
   to their organization and communities.

   In accordance with the audit guide provided by the DHS OIG, Foxx & Company auditors
   met with FEMA officials and conducted reviews and interviews at FEMA Headquarters at
   the beginning of the audit and, as needed, during the audit. The FEMA officials provided
   important background information and key documentation concerning South Dakota’s
   management and expenditure of the SHSP grants.

   We conducted this performance audit between July 2013 and January 2014, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 2 of the
   Standards, and included a review and report of program activities with a compliance
   element.

   Foxx & Company was not engaged to and did not perform a financial statement audit,
   the objective of which would be to express an opinion on specified elements, accounts,
   or items. Accordingly, Foxx & Company was neither required to review, nor express an
   opinion on, the costs claimed for the grant programs included in the scope of the audit.
   Had Foxx & Company been required to perform additional procedures, or conducted an
   audit of the financial statements in accordance with generally accepted auditing
   standards, other matters might have come to their attention that would have been
   reported. This report relates only to the programs specified and does not extend to any
   financial statements of South Dakota.




www.oig.dhs.gov                                 26                                     OIGͲ14Ͳ89
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   While the audit was performed and the report prepared under contract, the audit
   results are being reported by the DHS OIG to appropriate FEMA and South Dakota
   officials.




www.oig.dhs.gov                             27                                       OIGͲ14Ͳ89
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report




www.oig.dhs.gov                  28                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                29                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                30                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                31                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                32                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                33                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                34                    OIGͲ14Ͳ89
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                35                    OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help state and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   x   The State Homeland Security Program provides financial assistance directly to each
       of the states and territories to prevent, respond to, and recover from acts of
       terrorism and other catastrophic events. The program supports the implementation
       of the state homeland security strategy to address identified planning, equipment,
       training, and exercise needs.

   x   The Urban Areas Security Initiative provides financial assistance to address the
       unique planning, equipment, training, and exercise needs of highͲrisk urban areas,
       and to assist in building an enhanced and sustainable capacity to prevent, respond
       to, and recover from threats or acts of terrorism and other disasters. Allowable costs
       for the urban areas are consistent with the SHSP. Funding is expended based on the
       urban area homeland security strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   x   Metropolitan Medical Response System
   x   Citizen Corps
   x   Operation Stonegarden




www.oig.dhs.gov                               36                                        OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   South Dakota Office of Homeland Security
   Grant Obligation and Allocation Process
   For the three fiscal years in our review, following receipt of the SHSP award from FEMA,
   the SAA awarded 20 percent of the grant funds to the state agencies and 80 percent to
   local entities Ͳ the States’ 66 counties and 9 Native American tribes.

   For the 80 percent awarded to the Local entities, the SAA awarded each county and
   tribe a base amount totaling 30 percent of the 80 percent, and the remaining 70 percent
   of the allocation was based upon population per county and tribe.

   To complete the SHSP obligation process, the SAA executes grant agreements to
   document the awards to the subgrantees – the state agencies, counties, and tribes. The
   agreements were signed by the SAA and the subgrantees.

   To utilize the funding for FYs 2010 and 2011, the SAA established a regional leadership
   structure of eight regions and selected a lead county for each region. The lead county
   then procured items for subrecipients Ͳ county, city, and municipality entities, and/or
   first responders (such as city fire and police departments) entities.

   For FY 2012, the SAA changed the funding utilization process. The SAA established six
   regions and regional coordinators. The regional coordinators met with review
   committees consisting of two people invited from each county and tribe–a law
   enforcement official and emergency manager. The committees reviewed applications
   received from the counties and tribes, and then awarded the funds competitively, based
   on the applications. The counties and tribes receiving funding then procured items for
   counties, tribes, cities, or municipalities. Some counties and tribes did not receive funds
   because they did not apply or the committees did not consider their proposed
   expenditures a priority.




www.oig.dhs.gov                                37                                        OIGͲ14Ͳ89
                            OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix E
   South Dakota Office of Homeland Security
   State Administrative Agency Organization Chart


                                 South Dakota
                                   Governor



                                Department of
                                Public Safety
                                  Secretary



                                             South Dakota
                                             Fusion Center



                                  Director of
                                 Administration



                  Finance    Highway                   Director of
                                         Accident
                   Office                              Homeland
                             Safety      Records                              Office of
                                                        Security
                                                                             Emergency
                                                                            Management
                                                                              Regional
                                                                          Coordinators and
                                                                          Training/Exercise
                                                             Program        Coordinators
                                                             Manager



                                                             Program
                                                             Specialist




www.oig.dhs.gov                               38                                         OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix F
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The THIRA
   provides a comprehensive approach for identifying and assessing risks and associated
   impacts, using the core capabilities identified in the National Preparedness Goal and
   employing the following fiveͲstep process:

       1. Identify threats and hazards;
       2. Give threats and hazards context (assess vulnerability, how they affect the
          community);
       3. Examine core capabilities using the threats and hazards (estimate consequences,
          impacts to the community);
       4. Set capability targets; and
       5. Apply the results (use results for planning and preparedness activities, identify
          means to deliver target level of capability).

   THIRA submission is required of all 56 states and territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be an annual
   performance requirement for FEMA preparedness grant awards. South Dakota’s THIRA
   was issued in June 2012. The State hired an outside firm, Dewberry, to facilitate the
   planning process, perform the technical analysis, and to prepare the THIRA report.

   In addition to the THIRA, states and territories receiving FEMA preparedness grants are
   required to annually submit a SPR. FEMA officials state that THIRA results and the SPR
   will provide a quantitative summary of preparedness, document current capabilities and
   potential shortfalls, and set priorities for addressing shortfalls. FEMA officials also state
   that the SPR results will be used by the states to identify funding requirements and set
   priorities for subgrantee project applications. The grant application (investment
   justification) must demonstrate how proposed projects address gaps and deficiencies in
   delivering one or more core capabilities outlined in the National Preparedness Goal and
   capability gaps reported in the SPR.

   The State developed its THIRA in compliance with DHS Comprehensive Preparedness
   Guide 201 released in April 2012. The report cited that it would be used to inform
   ongoing planning efforts among state agencies including, but not limited to, the
   following:

www.oig.dhs.gov                                 39                                         OIGͲ14Ͳ89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       x   2014 update of the State multiͲhazard mitigation plan
       x   State preparedness report due in December 2012
       x   State homeland security strategic plan
       x   State training and exercise plan
       x   State emergency operations plan

   The report also stated that the following DHS and FEMA guidance was used to prepare
   its THIRA:

       x   Comprehensive Preparedness Guide 201ͲThreat and Hazard Identification and
           Risk Assessment Guide: http://www.fema.gov/library/viewRecord.do?od=5823
       x   National Preparedness Goal: http://www.fema.gov/pdf/prepared/npg.pdf
       x   FEMA 452ͲRisk Assessment: A HowͲTo Guide to Mitigate Potential Terrorist
           Attacks: http://www.fema.gov/plan/prevent/rms/rmsp452.shtm
       x   FY 2011 Homeland Security Grant Program Guidance:
           http://www.fema.gov/pdf/government/grant/2011/fy11_hsgp_kit.pdf
       x   FEMA 386Ͳ7, Integrating Manmade Hazards into Mitigation Planning:
           http://www.fema.gov/library/viewRecord.do?id=1915




www.oig.dhs.gov                               40                                   OIGͲ14Ͳ89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  41                        OIGͲ14Ͳ89
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security
       Office of Inspector General, Mail Stop 0305
       Attention: Office of Investigations Hotline
       245 Murray Drive, SW
       Washington, DC 20528-0305

You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
